C@OCKLE

Le 2 al Briefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-48

B&B HARDWARE, INC.,
Petitioner,
v.

HARGIS INDUSTRIES, INC., d/b/a
SEALTITE BUILDING FASTENERS, d/b/a
EAST TEXAS FASTENERS, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2990 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of August, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE .
Generai Notary . A CL by
State of Nebraska - ‘

Notary Public Affiant 38591

My Commission Expires Nov 24, 2020

 
